Audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Umatilla Tribal Police Department, Oregon
GR-90-01-003	
January 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Umatilla Tribal Police Department (UTPD).  The purpose of the grants is to enhance community policing.  The UTPD was awarded a total of $600,000 to hire eight police officers.

We reviewed the UTPD's compliance with seven essential grant conditions.  We found the grantee's budgeting, hiring, source of matching funds, retention efforts, and community policing activities to be acceptable.  However, we found weaknesses in two areas and question $48,300, as identified below. 8

The UTPD claimed unallowable indirect expense of $44,796 (federal share) and unallowable compensatory time buyout of $3,504 (federal share) for the FAST/UHP grants.

Several of the UTPD's status reports were either not accurate, not filed timely, or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar -related findings and for definitions of questioned costs and funds to better use.